SCHOOL OF LAW

 

UNIVERSITY of WASHINGTON

August 15, 2019

Clerk

Supreme Court of the United States
1 First Street, N.E.

Washington, DC 20543

Re: First State Community Action Agency v. Tamra N. Robinson, No. 19-318
Dear Sir:
I am writing to request an extension of thirty days in which to file the Brief in Opposition in the
above action. The extension is requested because I am scheduled to be out of the country from August 19
until August 30. The Brief in Opposition is now due on August 29, 2019. If the extension were granted,
the Brief in Opposition would be due on September 28, 2019.
Yours sincerely, ,

ao A LZ

Eric Schnapper \,
Counsel for Respondéht

 

cc; Tasha Marie Stevens

University of Washington School of Law William H. Gates Hall Box 353020 Seattle, WA 98195-3020
206.543.4550 www.law.uw.edu
